WILMERI-IALE
April 7, 2021

Seth P. Waxman
+1 202 663 6800 (t)
+1 202 663 6363 (f)
seth.waxman@wilmerhale.com

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: Amarin Pharma, Inc. v. Hikma Pharmaceuticals USA Inc., No. 20-1119
Dear Mr. Harris:
I represent petitioners in this matter, Amarin Phanna, Inc. and Amarin Phannaceuticals
Ireland Limited ("Amarin"). I write to oppose respondents' motion for a 45-day extension of
time to file their brief in opposition.
Amarin filed its petition for certiorari on February 11- 51 days before the petition's due
date under the filing period provided by the Court' s order relating to COVID-19. Three amicus
briefs supporting the petition were filed shortly thereafter, well in advance of the March 18
deadline. Instead of filing their brief in opposition on March 18, respondents waived response.
On March 30, this Court called for response, which is due April 29.
As we infonned respondents, their request for a 45-day extension would seriously
prejudice Amarin by delaying the Court' s consideration of the petition until after the summer
recess. Amarin filed its petition well ahead of its due date precisely to ensure that the case would
be conferenced no later than June 2021. Likewise, Amarin was prepared to consent to a 20-day
extension as a courtesy, to and including May 18, which would ensure that the Court could
consider the petition at two conferences in June.
Respondents have not shown good cause for delaying consideration of this petition past
June. Respondents have had Amarin' s petition since February 11 and could have filed their
response on March 18 when it was initially due. That their responses are now due April 29,
purportedly causing scheduling conflicts, is due to respondents' own decision to file waivers.
Amarin respectfully requests that the Court not extend respondents' due date beyond May
18, 2021.
Sincerely,

~~~/Ai;)
cc: Counsel for respondents

Wilmer Cutler Pickering Hale and Dorr UP, 1875 Pennsylvania Avenue NW, Washington, DC 20006
Beijing

Berlin

Boston

Brussels

Denver

Frankfurt

London

Los Angeles

New York

Palo Alto

San Francisco

Washington

